TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Currently Not Collectible Decisions on
                     Delinquent Accounts Were Appropriate;
                      However, Closing Actions Need to Be
                                   Improved



                                      September 27, 2006

                              Reference Number: 2006-30-168




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 27, 2006


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Currently Not Collectible Decisions on
                             Delinquent Accounts Were Appropriate; However, Closing Actions
                             Need to Be Improved (Audit # 200530018)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) decisions
 on currently not collectible (CNC) delinquent accounts. The overall objective of this review was
 to determine whether the Small Business/Self-Employed Division Collection Field function used
 the proper procedures when closing delinquent accounts as CNC due to hardship (unable to pay).
 We reviewed individual and business taxpayer cases with balances due greater than $100,000
 because they accounted for approximately 78 percent of the dollars on cases closed as CNC due
 to hardship.

 Impact on the Taxpayer
 Closing a taxpayer balance-due account as CNC is a high-risk collection activity because the
 balance due from taxpayers may be at risk of never being collected. Revenue officers (RO)
 made the proper determinations to close the cases as CNC due to hardship, but did not always
 include sufficient documentation as required.

 Synopsis
 Our review showed ROs made the proper determinations to close the cases as CNC due to
 hardship because the taxpayers did not have the current ability to pay the taxes owed. ROs
 performed adequate research of assets, income, and the taxpayers’ current financial and personal
 situations to make the decisions. However, ROs did not always include sufficient documentation
                 Currently Not Collectible Decisions on Delinquent Accounts Were
                   Appropriate; However, Closing Actions Need to Be Improved



that they had obtained credit reports when required or select the appropriate closing codes when
closing the cases.
In 24 of 80 cases reviewed, ROs did not obtain or document the case file that they had received
credit reports. In 11 of these cases, there were some extenuating circumstances for which a
credit report would not have helped the case resolution; however, in the remaining
13 (16 percent) cases, ROs should have obtained credit reports. Credit reports show whether the
taxpayers have additional income and/or available credit balances from which they could borrow
or obtain funds.
For a case closed as CNC due to hardship, IRS procedures require the RO to input to the
Integrated Data Retrieval System1 a closing code containing account information. The closing
code equates to an amount of income the taxpayer may claim on a future tax return and should be
based on the taxpayer’s current expenses. If the income on a future tax return exceeds the
amount of those expenses, the case will be reactivated. Our review of 163 cases showed that, in
95 cases (58 percent), ROs either did not select the appropriate closing code (66 cases) or did not
have documentation to support the closing code used (29 cases).
In 45 of the 66 cases with documentation, the RO selected a closing code higher than that
supported in the case file. As a result, these cases may not be reactivated at the earliest
appropriate time, as they would have been if a lower closing code had been used. For example,
if a taxpayer starts earning income sufficient to cover his or her expenses and the closing code is
set too high, the case may not be reactivated. The use of proper closing codes and reactivation
procedures may allow better opportunities for the IRS to collect unpaid liabilities.
In 21 of the 66 cases, the RO selected a closing code lower than that supported in the case file.
These cases may be reactivated sooner than appropriate. In these situations, the cases may be
reactivated when taxpayers still do not have sufficient income to pay the taxes owed and could
result in inefficient use of resources to work the cases.

Recommendation
We recommended the Director, Collection, reemphasize to managers and ROs the importance of
performing proper credit report checks, properly documenting the case files, and properly
selecting the appropriate closing codes. Managers should include evaluation of this in their CNC
case reviews.




1
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                                 2
                   Currently Not Collectible Decisions on Delinquent Accounts Were
                     Appropriate; However, Closing Actions Need to Be Improved




Response
The Commissioner, Small Business/Self-Employed Division, agreed with the recommendation.
The Internal Revenue Manual (IRM)2 will be revised to include additional direction regarding
case file documentation, emphasize the requirement to secure credit reports, and delineate the
proper selection of CNC hardship closing codes. Small Business/Self-Employed Division
management issued a memorandum in January 2006 to Collection field employees clarifying and
adding emphasis to procedures contained in the IRM regarding mandatory follow-up on cases
reported as CNC. An additional memorandum addressing the revised IRM instructions will be
issued to Collection field group managers and ROs to further emphasize the importance of
following IRM procedures when making CNC determinations. Management’s complete
response to the draft report is included as Appendix VI.
However, the Commissioner, Small Business/Self-Employed Division, did not agree with the
proposed outcome measures, indicating that while the sampling method chosen was appropriate
for making population predictions on the number of cases closed correctly or incorrectly, the
small number of cases in the audit sample resulted in imprecise benefit projections. A
substantially higher sample size is needed to assure greater precision in estimating benefits.

Office of Audit Comment
We do not agree that a larger sample was necessary. We used a statistically valid stratified
sampling method that was developed by our contracted professional statistician. While a higher
number of sampled cases could have reduced the range of dollars that we estimated, the extra
resources necessary for us to review more cases would not have been an efficient use of our
resources.
Copies of this report are also being sent to the IRS managers affected by the report’s
recommendation. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-8500.




2
    The IRM contains the procedures and guidelines for IRS employees to follow.
                                                                                                 3
                    Currently Not Collectible Decisions on Delinquent Accounts Were
                      Appropriate; However, Closing Actions Need to Be Improved




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Revenue Officers Performed Sufficient Financial Analysis and
          Property Research to Make Appropriate Decisions to Close Cases
          As Currently Not Collectible ........................................................................Page 3
          Revenue Officers Did Not Always Follow Procedures When
          Closing Cases................................................................................................Page 3
                    Recommendation 1:..........................................................Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Outcome Measures...............................................................Page 12
          Appendix V – Tax Liabilities of Sample Cases............................................Page 14
          Appendix VI – Management’s Response to the Draft Report ......................Page 15
      Currently Not Collectible Decisions on Delinquent Accounts Were
        Appropriate; However, Closing Actions Need to Be Improved




                       Abbreviations

CFf                Collection Field function
CNC                Currently Not Collectible
ICS                Integrated Collection System
IRM                Internal Revenue Manual
IRS                Internal Revenue Service
RO                 Revenue Officer
                  Currently Not Collectible Decisions on Delinquent Accounts Were
                    Appropriate; However, Closing Actions Need to Be Improved




                                             Background

The Internal Revenue Service (IRS) collection process begins with a series of delinquency
notices or bills mailed to a taxpayer when the taxpayer does not file a required tax return(s) or
pay taxes due. When the taxpayer fails to respond within a specified period of time, a delinquent
return or balance-due account is generated. Generally, the IRS attempts to contact the taxpayer
by telephone at this point. If telephone contact cannot resolve the account, certain cases are
assigned to the Collection Field function (CFf)1 where a revenue officer (RO) attempts
face-to-face contact with the taxpayer. Once a delinquent account is assigned, the RO conducts
an investigation to determine what collection procedures should be used to bring the taxpayer
into full compliance and ultimately inputs case closing actions to
the CFf computer system.
When the taxpayer has no ability to make payments on an                     Closing balance-due
account, the case can be closed as currently not collectible (CNC).         accounts as CNC is a
This is a high-risk collection action because the balance due from       high-risk collection activity
taxpayers may be at risk of never being collected. The CNC                because the balance due
hardship closing action stops IRS personnel from actively                from  the taxpayers may be
                                                                            at risk of never being
working the case and suspends collection action until the                          collected.
taxpayer’s ability to pay improves. Before closing a case as CNC,
the RO in the CFf is required to obtain and analyze information
on the taxpayer’s assets and financial information, if the taxpayer’s liability exceeds a certain
dollar amount. If the RO determines the taxpayer has some ability to pay or the taxpayer agrees
to make payments, various collection options can be considered, including installment
agreements. If the taxpayer has no ability to pay at the time, the case is closed as CNC. The
decision to place an account in CNC status requires the approval of a manager.
Based on IRS statistical reports, the IRS closed approximately 2 million accounts as CNC in
Fiscal Year 2005, for a total balance due of approximately $15 billion. The CFf wrote off
approximately $7 billion in Fiscal Year 2005, approximately $2 billion of which was due to
hardship. Hardship closings accounted for the second largest dollar amount of all cases closed as
CNC. During the same period, the CFf collected approximately $3.9 billion on all delinquent
accounts.
This review was performed at the Small Business/Self-Employed Division Collection function
Headquarters in New Carrollton, Maryland, during the period June 2005 through July 2006. The
audit was conducted in accordance with Government Auditing Standards. Detailed information

1
 The IRS function consisting of revenue officers in field offices who handle personal contacts with taxpayers to
collect delinquent accounts or secure unfiled returns.
                                                                                                            Page 1
              Currently Not Collectible Decisions on Delinquent Accounts Were
                Appropriate; However, Closing Actions Need to Be Improved



on our audit objective, scope, and methodology is presented in Appendix I. Major contributors
to the report are listed in Appendix II.




                                                                                        Page 2
               Currently Not Collectible Decisions on Delinquent Accounts Were
                 Appropriate; However, Closing Actions Need to Be Improved




                                Results of Review

Revenue Officers Performed Sufficient Financial Analysis and
Property Research to Make Appropriate Decisions to Close Cases As
Currently Not Collectible
Prior to closing a case as CNC, ROs are required to obtain sufficient information about the
taxpayer’s financial situation and should determine whether there are any other payment options
available for the taxpayer. When the aggregate balance due on the case is over $100,000, this
generally includes obtaining a current financial statement and credit report and researching
whether the taxpayer owns any real or personal property. It also includes researching internal
IRS records to obtain information about income sources and recently filed tax returns.
Our review of a judgmental sample of 80 individual and business taxpayer cases with a balance
due of over $100,000 showed that ROs made the proper
determinations to close the cases as CNC. Many of the
                                                                       Our review of 80 cases
taxpayers in our sample had accrued the large tax liabilities in       showed ROs made the
prior years, when they were in better financial condition.            proper determinations to
Their financial situations had changed considerably, and they        close cases as CNC due to
did not have the current ability to pay the taxes owed. ROs                  hardship.
performed adequate research of assets, income, and the
taxpayers’ current financial and personal situations to make
the decisions. The case files contained sufficient documentation of real and personal property
checks and verification of IRS internal data files that show income. Also, ROs generally
obtained a current financial statement or equivalent financial information from the taxpayers to
analyze the taxpayers’ current financial situations. When applicable, ROs and taxpayers
discussed other options for closing the cases, such as an installment agreement or offer in
compromise, and appropriately determined these options were not feasible.

Revenue Officers Did Not Always Follow Procedures When Closing
Cases
Although ROs made appropriate decisions to close the accounts as CNC and performed most of
the required research, they did not always include sufficient documentation that they had
obtained credit reports when required or select the appropriate closing codes when closing the
cases.



                                                                                           Page 3
                 Currently Not Collectible Decisions on Delinquent Accounts Were
                   Appropriate; However, Closing Actions Need to Be Improved



ROs did not always obtain or document that they had obtained credit reports
To support the decision to close a case as CNC, ROs are required to document the case file with
evidence of asset checks and financial analysis. One of the required items for financial analysis
is a credit report. As stated previously, ROs sufficiently documented asset and property checks
and generally documented sufficient financial analysis to make the CNC determination.
Although most procedures were followed, in 24 of 80 cases reviewed, ROs did not obtain or
document that they had obtained credit reports. In 11 of these cases, there were some
extenuating circumstances for which a credit report would not have helped the case resolution;
however, in the remaining 13 (16 percent) cases, credit reports should have been obtained to
identify potential current sources of money. Credit reports show whether the taxpayers have
additional income and/or available credit from which they could borrow or obtain funds, which
in turn could be made available to pay the taxes owed.
While the CNC cases we reviewed had the required managerial approvals, the reviews did not
appear to address the missing credit reports. It is important for the group manager to ensure all
required credit report checks are completed and properly documented to ensure the ROs
researched all potential income sources.
The lack of credit reports in these cases did not affect the ultimate decisions to close the cases as
CNC because the ROs performed other research sufficient to ascertain the taxpayers’ current
financial situations. However, analysis of credit reports is required to ensure all potential income
sources are researched. When credit reports are not evaluated, potential means of payment may
be missed.
ROs frequently did not select the appropriate closing codes
When ROs close a case as CNC due to hardship, they are required to input to the Integrated Data
Retrieval System2 a closing code that contains account information. The closing code equates to
an amount of income the taxpayer may claim on a future tax return and should be based on the
taxpayer’s current expenses. Accounts reported as CNC due to hardship will systemically
reactivate when the income on the taxpayer’s latest return is at least the amount related to the
unable-to-pay closing code. Once a case is reactivated, the IRS sends a notice to the taxpayer
about the taxes still owed and reassigns the case to the CFf inventory system. Depending on
resources, inventory, and priorities, the reactivated case could be assigned to an RO to try again
to collect the taxes owed.
Our review of a statistically valid sample of 163 cases showed that, in 95 cases (58 percent),
there was some type of error related to the closing code determination. See Appendix V for a
breakdown of liabilities for these cases.


2
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                           Page 4
                   Currently Not Collectible Decisions on Delinquent Accounts Were
                     Appropriate; However, Closing Actions Need to Be Improved



      •    In 66 cases, there was an incorrect closing code used when there was a document (usually
           a financial statement) showing the taxpayer’s expenses. We calculated what closing code
           should have been used and determined our conclusion was different from the RO’s
           decision, based on available documentation of the taxpayer’s expenses.
               o In 45 cases, the RO selected a closing code higher than that supported in the case
                 file.
               o In 21 cases, the RO selected a closing code lower than that supported in the case
                 file.
      •    In an additional 29 cases, there was no support for the closing code determination
           because there were no documents in the case file, comments in the case history narrative,
           or financial statement to show the taxpayer’s expenses.
Although the CNC cases reviewed had managerial approval, these errors were not addressed by
the managers. ROs either did not know the correct way to calculate the closing code or did not
document properly any modifications or adjustments of financial data obtained. The CFf quality
review system also identified problems with selecting the appropriate closing code. During our
audit period, it identified an error rate of approximately 26 percent.
The taxes due on the 45 cases noted above totaled approximately $83 million. As a result, these
cases may not be reactivated at the earliest appropriate time, as they would have been if a lower
closing code had been used. For example, if a taxpayer starts earning income sufficient to cover
his or her expenses and the closing code is set too high, the case may not be reactivated. This
could mean a chance to collect the revenue is lost. We estimate that, for the population of 4,976
cases over $100,000 in our sample period, ROs selected closing codes that were too high for
1,217 taxpayers. This is a potential loss or delay in collection of approximately
$440.4 million, ranging from approximately $348 million to $532 million. We recognize that
not all this revenue will be collected because the increase in income does not necessarily mean
the taxes will be fully collected. However, the use of proper closing codes and reactivation
procedures may allow better opportunities for the IRS to collect unpaid liabilities.
For the 21 cases noted above, there is a risk the cases may be reactivated earlier than necessary.
This could result in the unnecessary use of resources on cases for which the taxpayers still will
not have enough income to cover their allowable expenses and be able to make any payments.
These resources could be used on more productive cases. We estimate approximately
892 taxpayer cases in our population could have been closed with codes lower than appropriate.
Based on this, we estimate staff hours and salary involved to work these potentially unproductive
cases if they are reactivated and assigned to the CFf would total approximately $574,983.3



3
    See Appendix IV for details on outcome measures.
                                                                                              Page 5
                   Currently Not Collectible Decisions on Delinquent Accounts Were
                     Appropriate; However, Closing Actions Need to Be Improved



Recommendation
Recommendation 1: The Director, Collection, should reemphasize to managers and ROs the
importance of performing proper credit report checks, properly documenting the case files, and
properly selecting the appropriate closing codes. Managers should include evaluation of this in
their CNC case reviews.
           Management’s Response: The Commissioner, Small Business/Self-Employed
           Division, agreed with the recommendation. The Internal Revenue Manual (IRM)4 will be
           revised to include additional direction regarding case file documentation, emphasize the
           requirement to secure credit reports, and delineate the proper selection of CNC hardship
           closing codes. Small Business/Self-Employed Division management issued a
           memorandum in January 2006 to Collection field employees clarifying and adding
           emphasis to procedures contained in the IRM regarding mandatory follow-up on cases
           reported as CNC. An additional memorandum addressing the revised IRM instructions
           will be issued to Collection field group managers and ROs to further emphasize the
           importance of following IRM procedures when making CNC determinations.
           However, the Commissioner, Small Business/Self-Employed Division, did not agree with
           the proposed outcome measures, indicating that while the sampling method chosen was
           appropriate for making population predictions on the number of cases closed correctly or
           incorrectly, the small number of cases in the audit sample resulted in imprecise benefit
           projections. A substantially higher sample size is needed to assure greater precision in
           estimating benefits.
           Office of Audit Comment: We do not agree that a larger sample was necessary. We
           used a statistically valid stratified sampling method that was developed by our contracted
           professional statistician. While a higher number of sampled cases could have reduced the
           range of dollars that we estimated, the extra resources necessary for us to review more
           cases would not have been an efficient use of our resources.




4
    The IRM contains the procedures and guidelines for IRS employees to follow.




                                                                                              Page 6
                  Currently Not Collectible Decisions on Delinquent Accounts Were
                    Appropriate; However, Closing Actions Need to Be Improved



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Small Business/Self-Employed
Division CFf1 used the proper procedures when closing delinquent account cases as CNC due to
hardship (unable to pay). We reviewed individual and business taxpayer cases with balances due
greater than $100,000 because they accounted for approximately 78 percent of the dollars that
were closed as CNC due to hardship. To accomplish this objective, we:
I.       Determined whether Small Business/Self-Employed Division CFf employees followed
         proper procedures when closing cases as CNC due to hardship.
         A. Identified policies and procedures used to evaluate delinquent accounts’ eligibility for
            closure as CNC due to hardship.
         B. Identified the total population of individual and business taxpayer cases closed as
            CNC due to hardship by CFf employees.
         C. Extracted all cases closed as CNC due to hardship by CFf employees on the
            Integrated Collection System (ICS)2 open case Tax Module 53, Currently Not
            Collectible, from the Treasury Inspector General for Tax Administration Data Center
            Warehouse3 for the period June 1, 2004, through May 31, 2005.
         D. From the population identified in Step I.B., identified a population of 4,976 cases
            closed as CNC due to hardship with a balance due greater than $100,000. From this
            population, we reviewed a statistically valid sample of 163 taxpayers using a
            90 percent confidence level, 20 percent expected error rate, and ±5 percent precision
            rate for the selection criteria. (We initially selected 168 cases from this population;
            we reviewed 163 cases, which was a statistically valid sample size.)
         E. Reviewed the 163 cases from Step I.D. to determine whether the ROs used the correct
            closing code when closing the case and projected the results to the population.



1
  The IRS function consisting of ROs in field offices who handle personal contacts with taxpayers to collect
delinquent accounts or secure unfiled returns.
2
  The ICS is an automated system used to control and monitor delinquent cases assigned to the ROs in the CFf
offices.
3
  The Data Center Warehouse provides centralized storage, security, and administration of data files. It provides
data and data access services enabling auditors to access historical IRS data files.


                                                                                                             Page 7
                  Currently Not Collectible Decisions on Delinquent Accounts Were
                    Appropriate; However, Closing Actions Need to Be Improved



         F. Reviewed a judgmental sample of 80 of the 163 cases from Step I.D. to determine
            whether ROs followed the proper procedures and made the proper closing
            determinations when closing cases as CNC due to hardship. The judgmental sample
            was based on reviewing the first 80 cases received. We determined that 80 cases
            were sufficient to make a positive conclusion on the following procedures.
                1.     Determined whether the taxpayer’s asset and financial information was
                       obtained and analyzed when the taxpayer’s liability exceeded a certain dollar
                       limit.
                2.     Determined whether required research was performed and all documents and
                       reports were obtained and reviewed, if necessary, to substantiate the closure
                       as CNC due to hardship.
                3.     Performed our own research of independent sources such as tax return
                       information or Choice Point ™4 to verify information in the case file when
                       appropriate.
                4.     Determined whether the closure as CNC due to hardship was approved by the
                       manager when necessary.
                5.     Determined whether the RO released wage levies, if applicable or filed a lien,
                       if appropriate.
                6.     Verified Reports of Currently Not Collectible Taxes (Form 53) for accuracy,
                       completeness, correct closing codes, and evidence of request for refund
                       freeze (Transaction Code 130).
                7.     Determined whether the proper closing determination was made when
                       closing a case as CNC due to hardship.
         G. Determined the reliability of data by relying on our Data Center Warehouse, which
            has procedures in place to ensure the data it receives from the IRS are valid. Various
            procedures are performed to ensure the all the records in the ICS and IRS databases
            are received. In addition, on randomly selected taxpayer accounts, we performed
            other reliability testing, which included a comparison of the RO case closed date from
            the Data Center Warehouse with the IRS Integrated Data Retrieval System5 CNC
            transaction code date and a comparison of the ICS module balance amount with the
            Integrated Data Retrieval System assessed balance amount. We are satisfied that the
            data are sufficient, complete, and relevant to the review.


4
  Choice Point ™ is a provider of identification and credential verification services for business and government.
5
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 8
                  Currently Not Collectible Decisions on Delinquent Accounts Were
                    Appropriate; However, Closing Actions Need to Be Improved



         H. Identified quality review results related to cases closed as CNC by obtaining the
            Fiscal Year 2004 Collection Quality Measurement System6 reports to identify trends
            and verify the standards specifically related to procedures for closing cases as CNC
            due to hardship.




6
  This quality process uses numerous important standards to evaluate the key aspects of CFf work on balance due
accounts, which are unpaid tax liabilities, including determining whether the right procedures were followed and if
the case was closed correctly.

                                                                                                             Page 9
              Currently Not Collectible Decisions on Delinquent Accounts Were
                Appropriate; However, Closing Actions Need to Be Improved



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Lynn W. Wofchuck, Audit Manager
Julian E. O’Neal, Lead Auditor
Donna L. Saranchak, Senior Auditor
Pillai Sittampalam, Senior Auditor




                                                                                        Page 10
              Currently Not Collectible Decisions on Delinquent Accounts Were
                Appropriate; However, Closing Actions Need to Be Improved



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 11
                  Currently Not Collectible Decisions on Delinquent Accounts Were
                    Appropriate; However, Closing Actions Need to Be Improved



                                                                                                 Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Increased Revenue - Potential; 1,217 taxpayers affected and $440.4 million (see page 3).

Methodology Used to Measure the Reported Benefit:
For the period June 1, 2004, through May 31, 2005, we identified from the ICS1 a population of
4,976 taxpayer cases closed as CNC due to hardship with balances due of greater than $100,000.
From this population, we reviewed a statistically valid sample of 1632 taxpayer cases based on a
confidence level of 90 percent, a precision level of ±5 percent, and an expected error rate of
20 percent (based on quality review results).
We reviewed all 163 cases to determine whether the closing code was appropriate. In 45
(27 percent) of the 163 taxpayer cases, the RO selected a closing code higher than that supported
by the documentation. Although the overall CNC determination was appropriate, when the
closing code is set at an income level higher than that supported, the case may not be reactivated
at the time when the taxpayer starts earning enough income to pay back the taxes owed.
Based on these 45 taxpayer cases, we estimate 1,217 cases may have had the same situation
(based on the population of 4,976 cases multiplied by the weighted average error rate of
24.47 percent). Using a 90 percent confidence level, we also calculated the dollar value of
potentially affected taxpayer cases in the population. We estimate approximately $440.4 million
written off as CNC due to hardship from June 2004 through May 2005 could be affected. The
dollar value could range from $348 million to $532 million. This is based on the population of
4,976 multiplied by a weighted average dollar per error case in the population with the higher
closing code ($88,514). We recognize that not all this revenue will be collected because the
increase in income does not necessarily mean the taxes will be fully collected.



1
  The ICS is an automated system used to control and monitor delinquent cases assigned to the ROs in the CFf
offices.
2
  The sample size was originally 168; however, we could not obtain all the cases even after considerable over-
sampling. The 163 cases were considered statistically valid, and the final calculations are based on the 163 cases.
                                                                                                            Page 12
               Currently Not Collectible Decisions on Delinquent Accounts Were
                 Appropriate; However, Closing Actions Need to Be Improved



Type and Value of Outcome Measure:
•   Inefficient Use of Resources - Potential; 892 taxpayers affected and $574,983 (see page 3).

Methodology Used to Measure the Reported Benefit:
For the period June 1, 2004, through May 31, 2005, we identified from the ICS a population of
4,976 taxpayer cases closed as CNC due to hardship with balances due of greater than $100,000.
From this population, we reviewed a statistically valid sample of 163 taxpayer cases based on a
confidence level of 90 percent, a precision level of ±5 percent, and an expected error rate of
20 percent (based on quality review results).
In 21 (13 percent) of the 163 taxpayer cases, the RO selected a closing code lower than that
supported by the documentation. These cases may be reactivated earlier than necessary. This
could result in the use of unnecessary resources on cases in which taxpayers still will not have
enough income to cover their allowable expenses and be able to make any payments. These
resources could be used on more productive cases.
Therefore, based on the 21 taxpayer cases for which the closing code was set lower than it should
have been, we estimate that approximately 892 cases could have had lower closing codes than
were appropriate (based on the population of 4,976 cases multiplied by the weighted average
error rate of 17.92 percent). Using an average of 29.3 hours to work a similar case and
multiplying it by the 892 cases equals 26,135.6 hours. Using the 26,135.6 hours and multiplying
it by a grade 11 RO base salary per hour of approximately $22 would be $574,983 in salary to
work these potentially unproductive cases if they are reactivated and assigned to the CFf.




                                                                                           Page 13
Currently Not Collectible Decisions on Delinquent Accounts Were
  Appropriate; However, Closing Actions Need to Be Improved



                                                   Appendix V

    Tax Liabilities of Sample Cases

    Tax Liabilities        Number of Taxpayer Cases
                           Reviewed for Closing Code
                                Determinations
  $100,000 – $249,999                  58
  $250,000 – $999,999                  60
 $1,000,000 – $2,999,999               25
 $3,000,000 and greater                20
         Total                        163




    Tax Liabilities        Number of Taxpayer Cases
                           Reviewed for Overall CNC
                                 Determinations
                           (included in the 163 cases
                                 shown above)
  $100,000 – $249,000                  27
  $250,000 – $999,000                  32
 $1,000,000 – $2,999,000               14
 $3,000,000 and greater                7
         Total                         80




                                                         Page 14
   Currently Not Collectible Decisions on Delinquent Accounts Were
     Appropriate; However, Closing Actions Need to Be Improved



                                                     Appendix VI

Management’s Response to the Draft Report




                                                            Page 15
Currently Not Collectible Decisions on Delinquent Accounts Were
  Appropriate; However, Closing Actions Need to Be Improved




                                                         Page 16
